           ASSESSMENT REPORT
                 11-08



      ASSESSMENT OF GPO’S PUBLIC KEY
INFRASTRUCTURE CERTIFICATION AUTHORITY –
           ATTESTATION REPORT


            September 30, 2011
Date
September 30, 2011
To
Chief Information Officer
From
Assistant Inspector General for Audits and Inspections
Subject
WebTrust Assessment of GPO’s Public Key Infrastructure Certification
Authority – Attestation Report
Report Number 11-08


The Government Printing Office (GPO) Office of Inspector General (OIG) has
completed the WebTrust assessment of GPO’s Public Key Infrastructure
(PKI) Certification Authority (CA) for 2011. The purpose of the assessment
was to determine whether GPO’s management assertion related to the
adequacy and effectiveness of controls over its CA operations, is in all
material respects fairly stated. To conduct the assessment, the OIG
contracted with Ernst and Young LLP (E&Y), an independent public
accounting firm licensed by the American Institute of Certified Public
Accountants (AICPA) to provide WebTrust assurance services. Management
of the GPO Certification Authority should be commended for once again
passing this rigorous assessment.

Background and Objectives

GPO has implemented a PKI to support its “born digital and published to the
web” methodology to meet GPO customer expectations of being official and
authentic. The GPO PKI also directly supports GPO’s mission related to
electronic information dissemination and e‐Government. The GPO CA
issues, signs and manages the public key certificates in secure facilities
based in Washington, D.C. The GPO PKI is cross‐certified with the Federal
Bridge Certificate Authority (FBCA). FBCA certification provisions require
the GPO PKI to undergo a compliance review 1. To satisfy this compliance
requirement, the OIG tasked E&Y to conduct a WebTrust assessment of its


1Compliancereview requirements can be found at
(http://www.idmanagement.gov/fpkipa/documents/audit_guidance.pdf)
CA. The assessment was conducted in accordance with the AICPA’s
WebTrust Principles and Criteria for Certificate Authorities and Statement
on Standards for Attestation Engagements (SSAE) Number 10. The
assessment represents an evaluation of whether GPO’s assertion related to
the adequacy and effectiveness of controls over its CA operations is fairly
stated based on underlying principles and evaluation criteria.

The scope of the assessment included the following entities involved with
operating the GPO CA:

   •   CA Policies and Procedures;
   •   Registration Authorities;
   •   Certification Authorities and Repository; and
   •   CA Supporting Systems, Databases and PKI facilities.

The assessment also measured the GPO CA’s compliance with reporting
requirements of the Federal Public Key Infrastructure Policy Authority
(FPKIPA).

As a result of work performed, E&Y issued two Attestation Reports
(enclosures) which express their unqualified opinion that (1) GPO
management’s assertion related to the adequacy and effectiveness of
controls over its CA operations is, in all material respects, fairly stated based
on the AICPA WebTrust for Certification Authorities Criteria, and (2) GPO
management’s assertion related to its CA operations compliance with the
requirements of the FPKIPA is fairly stated in all material respects.

E&Y also issued a Letter of Supplementary Information to address additional
FPKIPA reporting requirements. E&Y provided the means to display the
report electronically as appropriate with access via GPO’s designated
website through an E&Y branded WebTrust seal for a period of 12 calendar
months from issuance and for a longer period upon E&Y’s prior written
consent. GPO should implement the seal as a hyperlink to the assertion and
attestation report maintained on the AICPA’s secure server, to a Universal
Resource Locator provided by E&Y. GPO may also, at its discretion, provide
a brief narrative and hyperlinks to the assertion and report on the AICPA
server, as approved by E&Y. GPO may display the seal on one or more web
pages within the noted GPO domains at its discretion. The seal and the
report may not be used on websites or in other ways not expressly
permitted by Ernst and Young.

The two enclosed Attestation Reports cover the period July 1, 2010 through
June 30, 2011. Upon direction by the OIG, E&Y will perform future
examination procedures to support the issuance of updated reports. The
timing of such updates depends on factors such as the amount of change that



                                        ii
has occurred since the last update. Subsequent reports must cover a
continuous representation period (i.e. commencing either on the beginning
or ending date of the prior report) of up to 12 months.

In the event of material changes to GPO’s CA system, additional assessment
procedures may be required to determine whether GPO continues to meet
the WebTrust for CA criteria and to issue an updated assessment report. If
additional assessment procedures are required but not performed, E&Y has
the option of declaring that the GPO no longer meets the WebTrust for CA
criteria and GPO would forfeit the right to display the electronic WebTrust
Seal. Therefore, please notify the OIG in advance in the event that GPO
makes material changes to its CA system, including changes to controls,
information handling practices, or disclosures; in the manner in which
GPO complies with the WebTrust for CA criteria, in the nature of the
products, information, or services offered; or changes in the systems
used to support the GPO CA.

The report contains no recommendations and therefore we are not
requesting a management response. The final report distribution is in the
Appendix to this report. If you have any questions concerning the report or
the assessment process, please contact Mr. Brent Melson, Deputy Assistant
Inspector General for Audits and Inspections at (202) 512-2037, or myself at
(202) 512-2009.




Kevin J. Carson
Assistant Inspector General for Audits and Inspections

Enclosures




                                     iii
US Government
Printing Office
Report of Independent Accountants

Webtrust for CA
                                              Table of Contents


Report of Independent Accountants ............................................................................. 1

Management Assertion ................................................................................................ 3
                                                                    Ernst & Young LLP
                                                                    Westpark Corporate Center
                                                                    8484 Westpark Drive
                                                                    McLean, VA 22102
                                                                    Tel: + 1 703 747 1000
                                                                    Fax: +1 703 747 0100
                                                                    www.ey.com




                          Report of Independent Accountants

To the Inspector General of the United States Government
 Printing Office and the Management of the United States
 Government Printing Office Certification Authority (GPO-CA):

We have examined the assertion by the management of the US Government Printing Office
(GPO) that in providing its Certification Authority (CA) services known as GPO Public Key
Infrastructure Certification Authority (GPO-CA) in Washington, DC for the Root CA: GPO-CA
during the period from July 1, 2010 through June 30, 2011, GPO-CA has:

       Disclosed its key and certificate lifecycle management business and information
        privacy practices in its Certificate Practices Statement and provided such services in
        accordance with its disclosed practices, and

       Maintained effective controls to provide reasonable assurance that:

         –   Subscriber information was properly authenticated;

         –   The integrity of keys and certificates it managed was established and protected
             throughout their lifecycles;

         – Subscriber and relying party information was restricted to authorized individuals
           and protected from uses not specified in the CA’s business practices disclosure;

         –   The continuity of key and certificate lifecycle management operations was
             maintained; and

         –   CA systems development, maintenance and operations were properly authorized
             and performed to maintain CA systems integrity

         based on the AICPA/CICA WebTrust for Certification Authorities Criteria.

GPO-CA’s management is responsible for its assertion. Our responsibility is to express an
opinion on management’s assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants, and accordingly, included (1) obtaining an
understanding of GPO-CA’s key and certificate lifecycle management business and
information privacy practices and its controls over key and certificate integrity, over the




                                                                                                                    1
                                                                    A member firm of Ernst & Young Global Limited
authenticity and privacy of subscriber and relying party information, over the continuity of
key and certificate lifecycle management operations, and over development, maintenance
and operation of systems integrity; (2) selectively testing transactions executed in
accordance with disclosed key and certificate lifecycle management business and information
privacy practices; (3) testing and evaluating the operating effectiveness of the controls; and
(4) performing such other procedures as we considered necessary in the circumstances. We
believe that our examination provides a reasonable basis for our opinion.

Because of inherent limitations in controls, errors or fraud may occur and not be detected.
Furthermore, the projection of any conclusions, based on our findings, to future periods is
subject to the risk that the validity of such conclusions may be altered because of changes
made to the system or controls, the failure to make needed changes to the system or
controls, or deterioration in the degree of effectiveness of the controls.

In our opinion, for the period from July 1, 2010 through June 30, 2011, GPO-CA
management’s assertion, as set forth in the first paragraph, is fairly stated, in all material
respects, based on the AICPA/CICA WebTrust for Certification Authorities criteria.

The WebTrust seal of assurance for certification authorities on GPO-CA’s website constitutes
a symbolic representation of the contents of this report and it is not intended, nor should it be
construed, to update this report or provide any additional assurance.

The relative effectiveness and significance of specific controls at GPO-CA and their effect on
assessments of control risk for subscribers and relying parties are dependent on their
interaction with the controls, and other factors present at individual subscriber and relying
party locations. We have performed no procedures to evaluate the effectiveness of controls
at individual subscriber and relying party locations.

This report does not include any representation as to the quality of GPO-CA’s services beyond
those covered by the WebTrust for Certification Authorities Criteria, nor the suitability of any
of GPO-CA’s services for any customer’s intended purpose.




ey
September 7, 2011




                                                                                                                       2
                                                                       A member firm of Ernst & Young Global Limited
3
4
5
US Government
Printing Office
Report of Independent Accountants

Federal PKI Compliance Report
                                              Table of Contents

Report of Independent Accountants ............................................................................. 1

Management Assertion ................................................................................................ 2

Letter of Supplementary Information ........................................................................... 4

Summary of Matters Relating to Project Personnel ....................................................... 6
                                                                       Ernst & Young LLP
                                                                       Westpark Corporate Center
                                                                       8484 Westpark Drive
                                                                       McLean, VA 22102
                                                                       Tel: + 1 703 747 1000
                                                                       Fax: +1 703 747 0100
                                                                       www.ey.com




                           Report of Independent Accountants


We have examined the assertion, dated September 7, 2011, by the management of the United
States Government Printing Office (“GPO”), that GPO’s Certification Authority (GPO-CA)
complied with the requirements of its Certificate Policy (CP), Version 1.3.1 dated August 17,
2009 and its Certificate Practices Statement (CPS) Version 1.7.1 dated June 3, 2011, for the
period July 1, 20010 to June 30, 2011, as well as the requirements of the Federal PKI
Authority and all current cross-certification Memorandum of Agreements (MOAs) executed by
the GPO-CA with other entities. Management is responsible for GPO’s compliance with those
requirements. Our responsibility is to express an opinion on management’s assertion about
GPO’s compliance based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and accordingly, included examining, on a
test basis, evidence about GPO-CA’s compliance with those requirements and performing such
other procedures as we considered necessary in the circumstances. We believe that our
examination provides a reasonable basis for our opinion. Our examination does not provide a
legal determination on GPO-CA’s compliance with specific requirements.

In our opinion, for the period from July 1, 2010 through June 30, 2011, GPO-CA
management’s assertion, as set forth in the first paragraph, is fairly stated, in all material
respects.

This report is intended solely for the information and use of the GPO and the U.S Federal PKI
Policy Authority and is not intended to be and should not be used by anyone other than those
specified parties.




ey
September 7, 2011




                                                                                                                       1
                                                                       A member firm of Ernst & Young Global Limited
2
3
                                                                    Ernst & Young LLP
                                                                    Westpark Corporate Center
                                                                    8484 Westpark Drive
                                                                    McLean, VA 22102
                                                                    Tel: + 1 703 747 1000
                                                                    Fax: +1 703 747 0100
                                                                    www.ey.com


                                                                    September 7, 2011




Letter of supplementary information

To the Inspector General of the United States Government Printing Office and the Management of
the United States Government Printing Office Certification Authority (GPO-CA):

This letter provides supplementary information to the examination performed by Ernst & Young
LLP of the assertion by the management of the GPO-CA regarding the certification authority
services it provides at http://www.gpo.gov/projects/pki.htm.

Management’s assertions were based on the American Institute of Certified Public Accountants
(AICPA)/Canadian Institute of Chartered Accountants WebTrust for Certification Authorities
criteria. GPO-CA’s management was responsible for its assertion. Our responsibility was to
express an opinion on management’s assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
AICPA and, accordingly, included examining, on a test basis, evidence about GPO’s compliance
with those requirements and performing such other procedures as we considered necessary in
the circumstances. We believe that our examination provides a reasonable basis for our opinion.
Our examination does not provide a legal determination on GPO-CA’s compliance with specified
requirements.

The audit period for this examination was from July 1, 2010 through June 30, 2011. Our
examination was performed between April 21, 2011 and September 1, 2011.

We examined the Certificate Policy (CP) for the GPO-CA version 1.3.1, dated August 17, 2009,
and the Certification Practices Statements (CPS) for the GPO Principal Certification Authority
(GPO-PCA) version 1.7.1, dated June 3, 2011. Multiple Root CAs were not in operation at
GPO-CA.

Our examination included, through our testing of management’s assertion, the evaluation of
GPO-CA’s operations for conformance to the requirements of its CPS and the evaluation of
GPO-CA’s operations for conformance to the requirements of all current cross-certification
Memorandum of Agreements (MOAs) executed by the GPO-CA with other entities. In our
Report of Independent Accountants dated September 7, 2011, we reported that
management’s assertion was fairly stated in all material respects.




                                                                                                                    4
                                                                    A member firm of Ernst & Young Global Limited
We have compared the CPS for the GPO-PCA version 1.7.1, dated June 3, 2011, for
conformance to the CP for the GPO-CA version 1.3.1, dated August 17, 2009. We found, in all
material respects, that the GPO-PCA CPS is in conformance with GPO-CA CP.

We have compared the CPS for the GPO-PCA version 1.7.1, dated June 3, 2011 for conformance
to the FPKI Common Policy. For this analysis we utilized the Framework Certification Practice
Statement Evaluation Mapping Matrix, Version 2.8 (September 22, 2010). We found, in all
material respects, that the GPO-PCA CPS is in conformance with the requirements of the FPKI
Common Policy.

We are independent of the GPO for the professional engagement period as required by the AICPA
Professional Standards.




ey




                                                                                                                   5
                                                                   A member firm of Ernst & Young Global Limited
                                                                       Ernst & Young LLP
                                                                       Westpark Corporate Center
                                                                       8484 Westpark Drive
                                                                       McLean, VA 22102
                                                                       Tel: + 1 703 747 1000
                                                                       Fax: +1 703 747 0100
                                                                       www.ey.com


                                                                       September 7, 2011




Summary of matters related to project personnel provided by Ernst & Young LLP

To the Inspector General of the United States Government Printing Office and the Management of
the United States Government Printing Office Certification Authority (GPO-CA):

The GPO Office of Inspector General (OIG) has asked Ernst & Young LLP (EY or we) to provide
certain information to assist in its efforts to provide the Federal Public Key Infrastructure Policy
Authority (FPKIPA) with information about the individuals who performed work as part of the
WebTrust for Certification Authority (WTCA) examination services; these services are performed
in accordance with relevant American Institute of Certified Public Accountants (AICPA) standards.
The FPKIPA sets policy governing operation of the U.S. Federal PKI Infrastructure, composed of:
the Federal Bridge Certification Authority (FBCA); the Federal Common Policy Framework
Certification Authority (CPFCA); the Citizen and Commerce Class Common Certification Authority
(C4CA) and the E-Governance Certification Authority. EY makes no representation regarding the
sufficiency of this information for the purposes for which this information was requested. That
responsibility rests solely with the FPKIPA.

Educational level and professional experience

Client serving personnel (Professionals) EY has provided to the Agency have received a degree
from an accredited college or university (or its equivalent if the individual was educated outside of
the United States). Certain individuals may also have advanced degrees. The majority of
Professionals provided to the Agency are part of EY’s Advisory Services (AS) service line. AS
focuses its recruiting efforts on candidates with information technology, accounting, finance and
other business-related degrees. Hiring activities and types of Professionals hired into each EY
service line, including Assurance and Tax, are generally the same as similar service lines and
personnel of Deloitte & Touche, PricewaterhouseCoopers and KPMG (who along with EY, are the
Big Four).

The experience levels of Professionals provided will vary based upon various factors including age
and length of time the individual has worked since receiving their degree. The amount of
professional experience of Professionals may not solely be related to a person’s employment
period with EY, as EY normally hires a combination of experienced Professionals and
Professionals who recently graduated from a college or university. In most cases, the experience
level within a rank classification of EY Professionals is generally the same as the other Big Four.




                                                                                                                       6
                                                                       A member firm of Ernst & Young Global Limited
Methodologies, policies and procedures

EY Professionals carrying out WTCA examinations are required to comply with policies and
procedures within the EY Advisory Global Practice Manual and related methodologies. In those
cases where we do not perform work directly under the supervision and responsibility of Agency
personnel as part of an engagement to provide loan staff, and we provide management with our
findings and recommendations in those areas where we observe internal controls that, in our
view, could be improved, the Advisory Global Practice Manual requires the work and any reports
or deliverables to be in accordance with the Statement on Standards for Consulting Services
(CS100) of the AICPA. The initial adoption of, and any subsequent changes in, policies and
procedures have been reviewed and approved by EY’s Professional Practice group.

Professional certification and continuing education

EY encourages its Professionals to obtain a professional certification. In certain service lines,
obtaining a professional certification is a requirement for promotion. Individuals in AS are
encouraged to obtain a professional certification, but it is not a requirement of employment or
advancement. AS’ more experienced Professionals (which we refer to as managers, senior
managers, executive directors, principals or partners) usually have a professional certification
and some may have more than one certification. In the AS service line, the most common
certifications are Certified Public Accountant (CPA) (or its equivalent in other countries), Certified
Internal Auditor (CIA) as recognized by the Institute of Internal Auditors, Certified Information
Systems Auditor (CISA) as recognized by the Information Systems Audit and Control Association,
or Certified Management Accountant (CMA) as recognized by the Institute of Management
Accountants.

The continuing professional education requirements of the SEC (Securities and Exchange
Commission) Practice Section of the AICPA Division for CPA firms are the foundation of EY’s
professional development policy. The policy applies to all professionals and Government
Accountability Office (GAO) Guidance, as confirmed in consultation with GAO personnel, suggests
that staff and those individuals not managing an engagement subject to Government Auditing
Standards (GAS) may generally satisfy the Government Auditing Standards (Yellow Book) 24 hour
CPE requirement through completion of the firm’s core training because significant portions of
core training content involve auditing under AICPA standards and AICPA standards are
incorporated into GAS. As a subset of the 24 hour GAS requirement, our firm has a governmental
audit continuing education policy that applies to each individual acting as partner in charge, the
independent reviewer, and each individual managing a governmental audit or attestation
engagement. An individual’s professional development principally occurs through formal learning
and on-the-job training. Participation in formal education programs (including self-study
programs and meetings organized at least in part for educational purposes) is intended to
supplement on-the-job training and other learning activities.




                                                                                                                        7
                                                                        A member firm of Ernst & Young Global Limited
Participation in professional development programs is measured in units of continuing
professional education (CPE) credit hours earned in our educational year. EY’s educational year is
July 1 through June 30. The EY policy for compliance is as follows:

– Commencing with the first full educational year of employment, each professional must obtain
  at least 20 CPE credit hours each year and at least 120 CPE credit hours during the most
  recent three-year period.

– Professionals who were not employed during the entire most recent educational year are not
  required to earn continuing professional education credits in that year.

– Professionals who were employed during the entire most recent educational year, but not
  during the entire most recent two educational years, are required to have participated in at
  least 20 hours of qualifying continuing professional education during the most recent
  educational year.

– Professionals who were employed during the entire most recent two educational years, but not
  during the entire most recent three educational years, are required to have participated in at
  least 20 hours of qualifying continuing professional education during each of the two most
  recent educational years.

Professionals who hold a professional designation or certification other than the CPA certification
(e.g., CIA, attorney at law, CISA, CMA) may be subject to continuing education requirements as
part of that designation or certification. Completion of courses to meet these requirements may
be used to meet the firm’s CPE requirements as long as the courses also meet the requirements
of the AICPA’s SEC Practice Section.

Experience Auditing PKI Systems

The EY executive team assigned to the GPO project has experience in performing audits and
implementation of PKI systems and IT security. In addition, certain team members also have
participated in a number of other commercial PKI and WebTrust for CA examinations both as a
team member and as a quality reviewer. We have incorporated consultations with other EY staff
who represent the firm on the AICPA WebTrust Task Force.

We are available if you need any additional information or would like to further discuss this
memorandum.




ey
                                                                                                                       8
                                                                       A member firm of Ernst & Young Global Limited
Summary information for EY executives assigned to the engagement
                                                                          In compliance with
                                                              Years of      EY CPE policy
Name                         Rank        Certifications      experience        (Yes/No)
                                         CA (Switzerland),
Werner Lippuner         Principal                               22               Yes
                                         CISA, CISM
                        Executive
James Merrill                            CPA, CISA              29               Yes
                        Director
                                         CISSP, CPA, CISA,
Bruce Hamilton          Senior Manager                          30               Yes
                                         CISM
Timothy Iijima, Ph.D.   Senior Manager   PMP                    14               Yes
Staci Angel             Manager          CISA                    7               Yes




                                                                                       9
                       Appendix. Report Distribution

Public Printer
Assistant Public Printer, Operations
Chief of Staff
Chief Information Officer
Chief Technology Officer
Chief Information Security Officer
Quality Assurance Director
